No. 19-123

In the Supreme Court of the United States
SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, ET AL.,
Respondents.
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Third Circuit
CITY RESPONDENTS’ BRIEF IN OPPOSITION
MARCEL S. PRATT
City Solicitor
DIANA P. CORTES
JANE LOVITCH ISTVAN
ELEANOR N. EWING
BENJAMIN H. FIELD
ELISE BRUHL
MICHAEL PFAUTZ
CITY OF PHILADELPHIA
LAW DEPARTMENT
1515 Arch Street
Philadelphia, PA 19102
(215) 683-5014

DEEPAK GUPTA
Counsel of Record
JONATHAN E. TAYLOR
LARK TURNER
ALEXANDRIA TWINEM
GUPTA WESSLER PLLC
1900 L Street, NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
JOSHUA MATZ
KAPLAN HECKER & FINK
350 Fifth Avenue, Suite 7110
New York, NY 10118
(212) 763-0883

Counsel for Respondents City of Philadelphia, Department
of Human Services for the City of Philadelphia, and
Philadelphia Commission on Human Relations

October 10, 2019

-iQUESTIONS PRESENTED
The petition presents three questions:
1. Can free-exercise plaintiffs succeed only by proving
a particular type of discrimination claim—namely, that
the government would allow the same conduct by someone
with different religious views—or must courts consider
other evidence that a law is not neutral and generally
applicable?
2. Should Employment Division v. Smith be revisited?
3. Does the government violate the First Amendment
by conditioning a religious agency’s ability to voluntarily
contract with the government to perform a public function
on that agency’s compliance with key program requirements that allegedly contradict the agency’s religious
beliefs?

-iiTABLE OF CONTENTS
Questions presented ...............................................................i
Table of authorities ............................................................. iii
Introduction ...........................................................................1
Statement ............................................................................... 4
A.

Factual and legal background ..............................4

B.

This case ..................................................................9

C.

The interim contract and the City’s new
exemption-review procedures.............................14

Reasons for denying the petition....................................... 16
I.

There is no circuit split over the type of
evidence that may be considered in Free
Exercise Clause claims. .......................................16

II.

Even if there were a split over what
evidence to consider, this case would be a
hopelessly flawed vehicle to address it. ............20

III. The City did not act with religious hostility
in enforcing its generally applicable and
longstanding nondiscrimination policy. .............23
IV. This is not a suitable vehicle for revisiting
Employment Division v. Smith. ........................25
V.

The decision below correctly applied this
Court’s unconstitutional-conditions
precedents. ...........................................................28

Conclusion ............................................................................ 31

-iiiTABLE OF AUTHORITIES
Cases
Agency for International Development v. Alliance
for Open Society International,
570 U.S. 205 (2013) ..................................................26, 29
Bowen v. Roy,
476 U.S. 693 (1986) ........................................................27
Church of the Lukumi Babalu Aye, Inc. v. City of
Hialeah,
508 U.S. 520 (1993) ..........................................................2
Employment Division v. Smith,
494 U.S. 872 (1990) ..........................................................3
Fraternal Order of Police v. City of Newark,
170 F.3d 359 (1999) ........................................................16
Gamble v. United States,
139 S. Ct. 1960 (2019) ....................................................28
Kennedy v. Bremerton School District,
139 S. Ct. 634 (2019) ......................................................28
Kimble v. Marvel Entertainment, LLC,
135 S. Ct. 2401 (2015) ....................................................28
Kisor v. Wilkie,
139 S. Ct. 2400 (2019) ....................................................28
Larkin v. Grendel’s Den, Inc.,
459 U.S. 116 (1982) ........................................................27
Locke v. Davey,
540 U.S. 712 (2004) ........................................................26
Lyng v. Northwest Indian Cemetery Protective
Association,
485 U.S. 439 (1988) ........................................................27

-ivMasterpiece Cakeshop v. Colorado Civil Rights
Commission,
138 S. Ct. 1719 (2018) ................................................2, 25
McCreary County, Kentucky. v. American Civil
Liberties Union of Kentucky,
545 U.S. 844 (2005) ........................................................22
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984) ........................................................28
Rust v. Sullivan,
500 U.S. 173 (1991) ........................................................29
Stormans, Inc. v. Wiesman,
136 S. Ct. 2433 (2016) ....................................................19
Stormans, Inc. v. Wiesman,
794 F.3d 1064 (9th Cir. 2015) .......................................18
Teen Ranch, Inc. v. Udow,
479 F.3d 403 (6th Cir. 2007) .........................................29
Tenafly Eruv Association v. Borough of Tenafly,
309 F.3d 144 (3d Cir. 2002) ...........................................17
Trinity Lutheran Church of Columbia, Inc.
v. Comer,
137 S. Ct. 2012 (2017) ....................................................30
United States v. Lee,
455 U.S. 252 (1982) ........................................................28
Statutes, Rules, and Regulations
Supreme Court Rule 10 ......................................................21
23 Pa. Cons. Stat. § 6344 .......................................................4
23 Pa. Cons. Stat. § 6344(d) ..................................................4
Philadelphia Code § 9-1100 et seq. .......................................6

-vOther Authorities
City of Philadelphia Law Department,
Waiver/Exemption Committee (April 2, 2019),
https://perma.cc/WT8Z-R3V4 ......................................15
New Privacy Review and Waiver/Exemption
Committees, City of Philadelphia (Apr. 3, 2019),
https://perma.cc/ C3PQ-K6SY .....................................15

-1INTRODUCTION
The City of Philadelphia contracts with private
agencies to help it fulfill its obligations to care for abused
and neglected children—including, among other things,
the recruiting, screening, and certification of eligible
foster parents. Private foster-care agencies that choose to
contract with the City are paid with taxpayer funds to
perform this public function. This case concerns just one
obligation of Catholic Social Services in just one of its
contracts with the City: the obligation to give a fair look to
every prospective foster parent who walks in the door.
For many years, the City’s standard foster-care
contracts have prohibited discrimination based on characteristics enumerated in the Philadelphia Fair Practices
Ordinance, including race and sexual orientation. The City
has never allowed contractors to turn away potential
foster parents based on a protected characteristic.
Although this longstanding policy applies to all City
contractors—and although the City has long contracted
with Catholic Social Services, and continues to do so for a
range of other child-welfare services—CSS contends that
the City’s decision to enforce this policy against it reflects
religious hostility. On that basis, CSS seeks a “highly
unusual” remedy: “an injunction forcing the City to renew
a public services contract with a particular private party,”
free of the nondiscrimination policy. Pet. App. 25a n.8.
The Third Circuit affirmed the district court’s denial
of this requested preliminary injunction. It concluded that
CSS had “failed to make a persuasive showing that the
City targeted it for its religious beliefs, or is motivated by
ill will against its religion, rather than sincere opposition
to discrimination on the basis of sexual orientation.” Pet.
App. 12a. And it recognized that courts may find “ostensibly neutral government action unconstitutional because it

-2was motivated by ill will toward a specific religious group
or otherwise impermissibly targeted religious conduct.”
Pet. App. 26a (citing Masterpiece Cakeshop v. Colorado
Civil Rights Comm’n, 138 S. Ct. 1719 (2018) and Church
of the Lukumi Babalu Aye, Inc. v. City of Hialeah, 508
U.S. 520 (1993)). “These cases,” the court observed, hold
“that the government may not conceal an impermissible
attack on religion behind a cloak of neutrality and general
application.” Id. “Thus, a challenger under the Free
Exercise Clause must show that it was treated differently
because of its religion. Put another way, it must show that
it was treated more harshly than the government would
have treated someone who engaged in the same conduct
but held different religious views.” Id.
Seizing on this last sentence and plucking it out of
context, CSS tries to portray the Third Circuit’s decision
as announcing a new rule that a plaintiff may prevail only
by making “one specific showing: that the government
would allow the same conduct by someone who ‘held
different . . . views.’” Pet. 19. But this attempt is belied by
the decision itself, which considered in detail all the factors
that CSS says would be excluded under this supposed new
rule: the history of the challenged government policy,
CSS’s allegation that the City’s Department of Human
Services allowed secular but not religious exemptions, and
CSS’s allegation that DHS maintained a practice of
individualized exemptions. Pet. App. 32a-39a. Considering
all this, the court below found that “City officials
repeatedly emphasized that they respected CSS’s beliefs
as sincere and deeply held,” and that there was no credible
indication that the policy had been “gerrymandered” nor
any evidence of “religious persecution or bias.” Pet. App.
32a, 36a, 51a.

-3CSS’s claimed split rests on its mischaracterization of
the decision below. There is no split. No court has adopted
CSS’s imagined rule. And even if there were such a split,
it would make no difference: The decision below already
considered all the factors CSS identifies and concluded
that they do not change the outcome. The parties and the
court all agreed on the relevant legal rules. What CSS
really seeks is factbound error correction of the Third
Circuit’s application of those rules.
But this case is a particularly unsuitable vehicle for
such a fact-intensive inquiry. It arises from a spare and
obsolete record developed over just two weeks, with no
discovery, before the 2018 contract expired. The Third
Circuit held that the controversy over that contract “is
now moot,” Pet. App. 25a, and CSS does not contend
otherwise in this Court. The record tells us nothing about
the parties’ subsequent contract negotiations, the City’s
formulation of a new standard contract, or its announcement of a new committee to resolve religious objections of
the kind made by CSS. Because CSS chose not go back to
the district court to develop a record, the claims and
defenses here would turn on contested facts that this
Court would have to adjudicate in the first instance.
CSS also urges review of two concededly splitless
issues. The Court should not grant certiorari to reconsider
Employment Division v. Smith, 494 U.S. 872 (1990). This
case would be an especially problematic vehicle in which
to do so: It arises in the context of a government contract
dispute with serious countervailing Establishment Clause
implications. Nor should this Court grant consider CSS’s
unconstitutional-conditions theory. The City’s ability to
impose conditions on the receipt of City funds for City services—here, conditions on who may receive those public
services—is well established under this Court’s cases.

-4STATEMENT
A. Factual and legal background
Philadelphia’s obligations to abused and neglected
children. Pennsylvania law requires local agencies—
including the City of Philadelphia, through its Department of Human Services (DHS)—to accept and assume
custodial responsibility for children who have been abused
or neglected. 23 Pa. Cons. Stat. § 6344(d); 55 Pa. Code
§ 3700.62 et seq. It also charges these agencies with advancing the well-being of children within their care, consistent with the best interest of each child. The Commonwealth of Pennsylvania, DHS, and a number of private foster-care agencies each play a role in the City’s foster-care
system.
The City has protective custody of roughly five
thousand children who cannot live with their legal parents.
Many of these children are placed in homes with foster
parents, though some are also in “congregate care,” such
as group homes, institutional placements, or residentialtreatment facilities. The City also provides foster care to
this population partly by using taxpayer funds to contract
with private community-umbrella agencies and private
foster-care agencies, each of which must be licensed by
Pennsylvania and is subject to child-welfare laws and
regulations. See 23 Pa. Cons. Stat. § 6344.
The City’s Department of Human Services has long
contracted with Catholic Social Services (CSS)—and
other religious organizations—to provide public childwelfare services. To this day, the Department works
closely with CSS to provide a range of services and values
its ongoing relationship with CSS. CSS serves Philadelphia’s at-risk children through congregate care, as a
community-umbrella agency, and through private foster
care. This case concerns only CSS’s obligations as a family

-5foster-care agency. When this litigation began, the City
was paying CSS to perform that role—which encompasses, among other things, identifying and recruiting
potential foster parents, as well as training and certifying
them on a continuing basis. This relationship, like the
City’s relationships with other private foster-care
agencies performing the same function, was structured
through one-year contracts renewable on an annual basis.
Agencies certify their continuing compliance with applicable state regulations and other terms set by the City.
Catholic Social Services’ now-expired contract with
the City of Philadelphia. When a prospective foster
parent walks into a private foster-care agency to apply to
be a foster parent, the City contract requires the agency
to evaluate and assess that person for certification. The
contract between the Department and CSS for FY 2018—
which was substantially similar to the City’s FY 2018
contracts with all other private foster-care agencies—
included a provision obligating CSS “to recruit, screen,
train, and provide certified resource care homes” for dependent children or youth, consistent with state law. CA3
J.A. 1033. The contract further required that CSS “obtain
Certifications as required by law and by DHS policy,” including for “all prospective foster parent applicants [and]
all prospective adoptive parent applicants.” Id. at 1078-79.
The Department expects each agency with whom it
contracts to evaluate and assess for certification each and
every prospective foster parent that wishes to work with
it. To that end, its contract with CSS, like its contracts
with other agencies, expressly prohibited discrimination
on certain specified grounds and required compliance with
the City’s Fair Practices Ordinance. This ordinance
precludes discrimination based, among other things, on
race and sexual orientation. DHS has never authorized

-6providers to refuse to certify, let alone refuse to establish
fostering relationships with, prospective parents because
of their membership in any protected category, including
sexual orientation. And long before this dispute arose,
DHS believed that each of its foster-care providers would
consider every prospective parent who requested to work
with that agency.1
The City has good reason for applying its general ban
on discrimination in this context. Excluding qualified
parents based solely on their sexual orientation, DHS
Commissioner Cynthia Figueroa has explained, would do
a disservice to children in the foster system, unnecessarily
limit the pool of available parents, and send “a very strong
signal to [the LGBTQ] community that [its] rights are not
protected.” CA3 J.A. at 483-84. In addition, the Department’s significant LGBTQ youth population would receive
the message that while “[we] support you now, we won’t
support your rights as an adult.” Id. at 484. In light of
these and other concerns, which are reflected in many
dimensions of the City’s public policy, DHS does not want
to discriminate “against one particular community” by
“excluding” its members from becoming foster parents.
Id. at 434, 668. Accordingly, the Department has never
allowed any foster-care agency to engage in the blanket
exclusion of prospective foster parents based solely on
protected traits when performing a public function on
behalf of the City under contract.
Catholic Social Services’ policy on same-sex couples. On March 9, 2018, the Department learned from a
1

The City adopted the Fair Practices Ordinance in 1963 and
amended it in 1982 to prohibit discrimination based on sexual orientation. Today the ordinance prohibits discrimination on the basis of,
among other things, race, religion, sexual orientation, gender identity,
and marital status. See Phila. Code § 9-1100 et seq.

-7Philadelphia Inquirer reporter that two of the Department’s contractor foster-care agencies—Catholic Social
Services and Bethany Christian Services—had policies of
categorically refusing service to same-sex couples seeking
to become foster parents. This was the first that DHS had
heard about such policies.
Commissioner Figueroa was immediately concerned
that CSS and Bethany were at risk of violating their City
contracts with DHS, and contacted the City’s Law
Department.2 She also called both CSS and Bethany to
determine the accuracy of the Inquirer report and learned
from both that they refused, on religious grounds, to consider same-sex couples for certification as foster parents.
Commissioner Figueroa also called other foster-care
agencies to inquire about their practices, focusing on religious agencies because she understood the particular
objections at issue to arise from religious belief, but also
calling at least one agency that was not religiously affiliated to determine its policy. None of the other agencies
she contacted had a similar policy.
Commissioner Figueroa consulted with the City’s lawyers, who told her that CSS’s policy would, in practice,
violate the City’s Fair Practices Ordinance and the
services provision of their contract with the Department.
Because this raised a serious legal issue that could affect
CSS’s ability to enter into the upcoming year’s contract,
DHS and CSS convened a meeting. There, CSS Secretary
James Amato stated that, for religious reasons, CSS
“would not move forward with a home study for a samesex couple.” Pet. App. 271a. He added that CSS had
provided services to the City for over one hundred years.
2

After the Inquirer article was published, the City Council passed
a resolution related to the article’s claims. Pet. App. 146a-147a. The
Council does not play a role in DHS contracting.

-8Commissioner Figueroa responded by emphasizing that
this history was not conclusive: She observed that times
had changed over the course of that relationship, that
women and African-Americans did not have the same
rights when it started, and that she herself would likely
not have been in her position a century earlier. Id. at 305a.
Commissioner Figueroa—herself a lifelong Catholic—
also said something like, “it would be great if we followed
the teachings of Pope Francis.” Id. at 306a.
Ultimately, CSS made clear that it would not comply
with its contractual requirement to evaluate and consider
certifying same-sex couples. CSS would therefore be unable to renew its contract for providing those services. As a
result, Commissioner Figueroa decided to stop placing
new children with CSS while discussions over the status of
the contract continued. This decision was consistent with
the parties’ contract, which does not require the City to
make any placement referrals with particular providers.
It was also consistent with Commissioner Figueroa’s past
practice, which has been to close intake to an agency
whenever it is at risk of no longer providing services,
regardless of the reason, to minimize the number of children’s placements that might need to be changed or transferred if the relationship ends. Commissioner Figueroa’s
intake closure went into effect on March 15, 2018, though
the City allowed exceptions where a child had siblings in a
CSS home or where a CSS foster family had a prior relationship with the child. The district court credited Commissioner Figueroa’s testimony that DHS was solely
responsible for this decision. Id. at 97a.
The intake freeze had limited consequences. It did not
affect children already placed with CSS. Nor did it affect
the overwhelming majority of DHS’s contractual relationships with CSS—namely, CSS’s congregate-care and

-9community-umbrella-agency services, which remain fully
active to this day under a new, multimillion-dollar contract. As the City’s Law Department made clear in a letter
to CSS, the City has “respect [for CSS’s] sincere religious
beliefs” and does not “want to see [its] valuable relationship with CSS . . . come to an end.” Pet. App. 169a-171a. It
hoped that CSS might agree to comply with the City’s Fair
Practices Ordinance so the parties could enter into a new
contract. Id. In the meantime, the City emphasized its
willingness to enter into an interim maintenance
contract “to continue to supervise the foster children in its
care properly with the least amount of disruption for
them.” Id. at 171a.
B. This case
Proceedings in the district court. In May 2018, just
weeks before its contract was set to expire, CSS sued the
City, DHS, and the Philadelphia Commission on Human
Rights and moved for a temporary restraining order and
preliminary injunction shortly thereafter. CSS asked the
court to require the City to continue its contractual
relationship with CSS in spite of CSS’s policy to turn away
same-sex couples, or else require it to enter into a new
contract on CSS’s terms. Following hearings in June 2018,
the district court denied CSS’s motion. It first found that
the FY 2018 contract (which had by then expired) explicitly incorporated the Philadelphia Fair Practices
Ordinance and that CSS’s foster services qualified as
public accommodations under City law. Pet. App. 73a-79a.
On this basis, it found that CSS’s policy would, in practice,
have violated its contract with the City. See id.
Next, the district court held that the City may include
a neutral, generally applicable nondiscrimination clause in
contracts with foster-care providers accepting public
money to render City services to City residents. Id. at 79a-

-1088a. It noted the City’s many neutral, legitimate
reasons for seeking compliance with that clause. These
include ensuring contractors adhere to terms they have
agreed to; ensuring that all qualified Philadelphians have
access to governmental services provided by contractors
and paid for by their taxes; and ensuring that “the pool of
foster parents and resource caregivers is as diverse and
broad as the children in need of foster parents and
resource caregivers.” Id. at 88a-93a.
Finally, the district court concluded the City had not
targeted CSS on the basis of hostility to its religious
beliefs. After a thorough examination of the history and
implementation of the challenged policy, the court found
no evidence that any involved City official had acted with
improper motive. Id. at 94a-101a.3 Nor had DHS elsewhere allowed exceptions from the challenged policy:
“There is no evidence in the record to show that DHS has
granted any secular exemption to the requirement that its
foster care agencies provide their services to all comers.”
Id. at 100a.
Following the denial of its motion for preliminary
relief, CSS unsuccessfully sought emergency injunctive
relief in the Third Circuit and this Court.
Proceedings on appeal. The Third Circuit unanimously affirmed. Because the contractual dispute was
moot, the court was left to consider only “whether [DHS]
may insist on the inclusion of new, explicit language
forbidding discrimination on the ground of sexual
3

CSS also attempted to prove improper motive through statements made by the Mayor, including before he took office. Pet. App.
94a-98a & n.26. Considering this evidence, the district court found the
Mayor’s comments irrelevant because “there was insufficient evidence at the preliminary injunction phase to show that the Mayor had
any influence in DHS’s decisions in this case.” Id. at 94a.

-11orientation as a condition of contract renewal, or whether
it must offer CSS a new contract that allows it to continue
engaging in its current course of conduct.” Id.
The Third Circuit held that, taking all the evidence into
account, CSS had failed at the preliminary injunction
stage “to make a persuasive showing that the City targeted it for its religious beliefs, or is motivated by ill will
against its religion, rather than sincere opposition to discrimination on the basis of sexual orientation.” Id. at 12a.
To the contrary, the record showed “[t]he City has acted
only to enforce its non-discrimination policy in the face of
what it considers a clear violation.” Id. at 32a.
To explain this conclusion, the court devoted ten full
paragraphs of its opinion to a comprehensive review of all
of the evidence put forth by CSS as evidence of alleged
religious discrimination. Id. at 32a-38a. Finding CSS’s
reliance on a single ambiguous statement by the City
Council to be unpersuasive, the court concluded that City
officials had in fact “repeatedly emphasized that they
respected CSS’s beliefs as sincere and deeply held.” Id. at
32a. It agreed with the district court that “nothing” in the
record indicated that the Mayor played a direct “or even a
significant” role in the process. Id. at 34a. And the court
was likewise unpersuaded that Commissioner Figueroa’s
conduct evinced either targeting or ill will. It explained
that her decision to call mostly religious agencies following the Inquirer article made sense where “[s]he had little
reason to think that nonreligious agencies might have a
similar policy.” Id. at 33a. And her reference to Pope
Francis’s teachings in negotiations with CSS was made in
“an effort to reach common ground with Amato by appealing to an authority within their shared religious
tradition” and did not offend the First Amendment. Id.

-12Nor did CSS prove it was treated differently on the
basis of religion. The court saw no evidence to support
CSS’s contention that the City was enforcing its
longstanding Fair Practices Ordinance “disingenuously or
as a pretext for persecuting CSS.” Id. at 34a. CSS’s only
basis for this claim is its unsupported allegation that City
policy allowed agencies to refer away prospective parents
in some circumstances. Both the district court and Third
Circuit determined that CSS introduced insufficient
evidence to support this contention. Id. at 35a. Even if
such referrals occur, the panel noted that DHS could,
consistent with such referrals and its actions in this case,
“insist that, while agencies are free to inform applicants if
they believe a different agency would be a better fit, they
must leave the ultimate decision up to the applicants.” Id.
This left CSS’s argument that because the City may,
for secular reasons, consider certain protected traits (such
as race or disability) in placing children with alreadyapproved foster parents, it should allow CSS to turn away
same-sex prospective foster parents for religious reasons.
In evaluating this argument—which rested on CSS’s
assertion that the City allowed exemptions from its nondiscrimination policy for secular but not religious
reasons—the court noted “many differences between
CSS’s behavior and the City’s consideration of race or
disability when placing a foster child.” Id. at 36a. “Most
significantly,” the court noted, “unlike CSS, [DHS] never
refuses to work with individuals because of their membership in a protected class. Instead it seeks to find the best
fit for each child, taking the whole of that child’s life and
circumstances into account.” Id.
With no indication that the policy had been “gerrymandered,” no “history of ignoring widespread secular violations,” and no “animosity against religion,” CSS presented

-13“insufficient evidence” of any Free Exercise Clause violation at the preliminary-injunction stage. Id. The evidence
instead demonstrated that the City had long worked with
CSS while fully aware of its religious character and its
views on marriage; had continued to work closely with
CSS and Bethany Christian on many other foster-care and
related programs; and had expressed “a constant desire to
renew its relationship with CSS as a foster care agency if
it will comply with the City’s non-discrimination policies
protecting same-sex couples.” Id. at 36a-37a.
The Third Circuit also rejected CSS’s claim that it has
been impermissibly compelled to speak in violation of the
First Amendment because it allegedly “has been required
to adopt the City’s views about same-sex marriage and to
affirm these views in its evaluations of prospective foster
parents.” Id. at 41a. Among other things, “[t]he problem
with this argument is that the ostensibly compelled speech
occurs in the context of CSS’s performance of a public
service pursuant to a contract with the government.” Id.
at 40a. At bottom, while the City “would violate [the First
Amendment] if it refused to contract with CSS unless it
officially proclaimed its support for same-sex marriage,”
the City may require that CSS “abide by public rules of
non-discrimination in the performance of its public function under any foster-care contract.” Id. at 42a.
Finally, aside from the merits, the court concluded
that CSS had failed to satisfy the other preliminary-injunction factors and pointedly noted that this “alone
defeats the request for a preliminary injunction.” Id. at
50a. With respect to irreparable harm, the panel noted
CSS had failed to demonstrate “that it is more likely than
not” to “go out of business.” Id. It noted that CSS’s
“[group-home] and Community Umbrella Agency functions are unaffected, it has other foster care contracts with

-14neighboring counties, and even as to its foster care
services in Philadelphia CSS cites only to Amato’s selfprofessed ‘guess’ that it would have to cease those operations within months.” Id. Balancing the equities and
considering the public interest, the court determined
that neither factor favored issuing an injunction: “Placing
vulnerable children with foster families is without question a vital public service, no doubt why there are 29 other
foster care agencies, including Bethany Christian, that
provide this service. Deterring discrimination in that
effort is a paramount public interest.” Id. at 50a-51a.
C. The interim contract and the City’s new
exemption-review procedures
The Department’s FY 2018 contract with CSS expired
of its own accord on June 30, 2018. Before and after the
contract expired, the City offered CSS a choice between
two different foster-care contracts: (1) a full contract,
under which DHS would reopen intake and CSS would be
required to evaluate and certify prospective foster families in accordance with the City’s longstanding nondiscrimination provisions; or (2) an interim contract
providing funds for ongoing care of those children
currently placed in CSS foster homes. CSS decided to
accept an interim contract.
CSS’s other, multimillion-dollar contracts with the
City—such as those for group-home and case-management services—were renewed, and CSS continues to play
a valued and integral role in helping the City care for
children in its custody. There is no evidence that the
closure of foster-care intake for CSS has had any negative
impact on the City’s capacity to care for children in its
custody. Since March 2018, when the City closed intake
for CSS, the total number of children in DHS care
generally has dropped by almost 1,000 children. There is

-15no indication that the City’s capacity to place children in
foster care has diminished because one of its 30 providers
is no longer taking on new foster children. The number of
children in group homes has dropped by almost 200 since
March 2018. In addition, the City has remained eager and
able to assist any CSS foster parents seeking new placements in their homes by matching them with another
agency with open intake.
Earlier this year, the City announced that it would
“formalize and streamline” the City Law Department’s
review of “complex constitutional and statutory issues
that may arise from formal requests for waivers of, or
exemptions from, City contracting requirements.”4 From
now on, when such requests are brought to the attention
of the Law Department by City agencies, active or threatened litigation, or parties with City contracts, a newly
constituted Waiver/Exemption Committee will carefully
address waiver and exemption requests in light of
“complex constitutional issues, such as equal protection,
due process, religious liberty, or other First Amendment
concerns.” Id.
As noted above, Commissioner Figueroa appropriately involved expert legal counsel in the City’s Law
Department in this matter from the outset, as soon as she
learned of CSS’s policy. The new procedures now in place
seek to ensure that, in the future, any request for a
religious exemption of the sort at issue here would be
directed to the Waiver/Exemption Committee and
handled through the procedures that it establishes.

4

See City of Philadelphia Law Department, Waiver/Exemption
Committee (April 2, 2019), https://perma.cc/WT8Z-R3V4; Linda
Huss, New Privacy Review and Waiver/Exemption Committees, City
of Philadelphia (Apr. 3, 2019), https://perma.cc/ C3PQ-K6SY.

-16REASONS FOR DENYING THE PETITION
I.

There is no circuit split over the type of evidence
that may be considered in Free Exercise Clause
claims.

The petition’s lead argument for certiorari attacks a
rule of its own invention—a rule to which no circuit
adheres. Pet. 20-22. Neither the Ninth Circuit nor the
Third Circuit has ever held that a free-exercise plaintiff
can prevail only by making “one specific showing: that the
government would allow the same conduct by someone
who ‘held different religious views.’” Pet. 19.
A. To the contrary, as a review of the decision below
confirms, the Third Circuit—like this Court and every
other circuit—allows free-exercise plaintiffs to prove their
claims in precisely the way that CSS sought to do so: “by
showing that the government issues individualized exemptions, that the law exempts secular conduct that undermines the government’s interest, or that [the] law’s
history indicates non-neutrality.” Id. This is clear both
from the legal standard articulated by the Third Circuit
and from its application of that standard to the facts of this
case.
Starting with the legal standard, it has long been
established in the Third Circuit that a decision “to provide
[secular] exemptions while refusing religious exemptions
is sufficiently suggestive of discriminatory intent so as to
trigger heightened scrutiny under Smith and Lukumi.”
Fraternal Order of Police v. City of Newark, 170 F.3d 359,
365 (1999) (Alito, J.) (invalidating a police department’s
grooming policy that allowed medical but not religious
exemptions). By the same token, the Third Circuit has
long made clear that “where government officials exercise
discretion in applying a facially neutral law, so that
whether they enforce the law depends on their evaluation

-17of the reasons underlying a violator’s conduct, they
contravene the neutrality requirement if they exempt
some secularly motivated conduct but not comparable
religiously motivated conduct.” Tenafly Eruv Ass’n v.
Borough of Tenafly, 309 F.3d 144, 165-66 (3d Cir. 2002)
(Ambro, J.) (invalidating a facially neutral ordinance because it had been ignored for secular activity but enforced
against Orthodox Jews).
The decision below recounted and reaffirmed Fraternal Order and Tenafly. It also discussed Lukumi and
Masterpiece at length, highlighting that both decisions
considered the full history of the challenged action in
assessing potential free-exercise violations. See Pet. App.
26a (observing that, in Lukumi, “the history of the law’s
adoption made plain” that “this was no earnest piece of
animal welfare legislation but rather an attempt to suppress the practice of Santeria”); id. (describing Masterpiece and noting that it involved “similar demonstrations
of religious animosity and differing treatment of religious
conduct”). More generally, the Third Circuit recognized
that “courts have found ostensibly neutral government
action unconstitutional because it was motivated by ill will
toward a specific religious group or otherwise impermissibly targeted religious conduct.” Id. (citing Masterpiece and Lukumi).
Surveying these decisions, the decision below described them as unified by a common thread: “religiously
motivated conduct was treated worse than otherwise similar conduct with secular motives.” Id. at 31a. It was in this
context, and with this background, that the court observed
that free-exercise plaintiffs must show that they were
treated “more harshly than the government would have
treated someone who engaged in the same conduct but
held different religious views.” Id. at 26a.

-18CSS seeks to manufacture a circuit split by taking that
one line out of context, treating it as a stand-alone legal
test, and asserting that it precludes consideration of any
other evidence. But every premise of that argument is
faulty, as the Third Circuit itself explicitly and repeatedly
made clear. Each one of the considerations that CSS
accuses the panel of deeming irrelevant to free-exercise
analysis was affirmatively embraced by the panel and
described as a means of proving a free-exercise violation.
Any conceivable doubt on that score is resolved by the
court’s own application of law to fact. Over ten paragraphs, the panel meticulously probed the history of the
challenged government action, CSS’s allegation that the
Department allowed secular but not religious exemptions,
and CSS’s allegation that the Department maintained a
practice of individualized exemptions. Pet. App. 32a-38a.
The panel did not state that any of these considerations
were irrelevant. In fact, it did the opposite. And in the end,
it held that the City’s policy “has not been gerrymandered
as in Lukumi, and there is no history of ignoring widespread secular violations as in Tenafly or the kind of
animosity against religion found in Masterpiece.” Id. at
36a.
B. The rule of law applied by the Third Circuit is also
consistent with the law of the Ninth Circuit. In
Stormans, Inc. v. Wiesman, 794 F.3d 1064 (9th Cir. 2015),
the Ninth Circuit upheld a Washington State rule requiring the timely delivery of all prescription medications—
including emergency contraceptives—by licensed pharmacies. There, too, the court held that facially neutral laws
might be implemented in a manner that targets and
burdens religious belief, id. at 1076-77; that the history of
a challenged policy is central to a free exercise inquiry, id.
at 1078-79; that it is impermissible to selectively exempt

-19secular but not religious conduct that undermines the
government’s interest, id. at 1079-80; and that a scheme of
discretionary individualized exemptions can offend the
First Amendment, id. at 1081-82. Ultimately, however, the
court concluded that the challenged rule survived
review under each of these constitutional requirements.
This Court denied review. See Stormans, Inc. v. Wiesman, 136 S. Ct. 2433 (2016). In dissenting from the denial
of certiorari, Justice Alito (joined by two other justices)
did not take issue with the rule of law applied by the Ninth
Circuit there—only with how the court had applied the law
to the record in that case. In his view, “the Court of
Appeals failed to accord the District Court’s findings
appropriate deference,” “improperly substituted its own
view of the evidence for that of the District Court,” and
“overlooked” a particular aspect of the state regulatory
scheme challenged there. 136 S. Ct. 2433, 2437-39 & n.3
(2016) (Alito, J., dissenting from the denial of certiorari).
There was no suggestion that the Ninth Circuit’s opinion
did what CSS claims it did—namely, split with multiple
appellate decisions predating that opinion on a fundamental rule of constitutional law.
There is thus no sound basis for concluding, as the
petition does (at 19), that Stormans rejects the relevance
of individualized exemptions, history, or exemptions for
secular but not religious conduct. And even if Stormans
did say as much—which it does not—that would not make
CSS’s petition worthy of review, because the decision
below does not do so. Quite the opposite: the rule of law
applied by the Third Circuit fully and properly protects
free-exercise claimants, in keeping with the rule in every
other circuit.

-20II. Even if there were a split over what evidence to
consider, this case would be a hopelessly flawed
vehicle to address it.
A. Even if the circuit split alleged by CSS were real, it
would not affect the outcome of this case. This is not a case
where the Court need speculate about whether the alleged
split is outcome determinative; the court below has
already explained in exacting detail why it is not. According to CSS, the Third Circuit held that it could prevail only
by showing “that the government would allow the same
conduct by someone who ‘held different religious views.’”
Pet. 19. CSS maintains that it was disallowed from seeking
to prove its claims “by showing that the government issues
individualized exemptions, that the law exempts secular
conduct that undermines the government’s interest, or
that [the] law’s history indicates non-neutrality.” Id. But
the very factors CSS steadfastly insists were ignored were
in fact analyzed by the court below—just not in CSS’s
favor. Pet. App. 32a-39a.5
B. Aside from the fact that the question is not outcome
determinative here, this case is also an especially unsuitable vehicle to address it because the parties and the court
below all agree on the answer: free-exercise claims may be
proven in the ways identified by CSS. As a result, what
CSS really takes issue with is the Third Circuit’s application of the rule of law set forth in Smith, Lukumi, and
Masterpiece. And what it really seeks from this Court is
the factbound correction of that fact-intensive application
5

Indeed, none of CSS’s questions presented are outcome determinative because they all bear only on a single preliminary-injunction
factor: likelihood of success on the merits. The panel below concluded
that CSS had not met the other factors, and squarely held that “this
alone defeats the request for a preliminary injunction.” Pet. App. at
50a (emphasis added).

-21of the law to the facts. See S. Ct. R. 10 (“A petition for a
writ of certiorari is rarely granted when the asserted
error consists of erroneous factual findings or the misapplication of a properly stated rule of law.”). CSS makes
this request, moreover, in an interlocutory posture, with a
spare and obsolete factual record and a shifting factual
context that render this case even further flawed as a
vehicle.
Even for the period for which a record exists, it is no
model of completeness. CSS moved for preliminary relief
on June 5, 2018, weeks before the expiration of its contract
with the City. There was no discovery, and the only extant
record was developed over just two weeks. Following an
evidentiary hearing on the preliminary-injunction motion,
the district court ruled a few weeks later. No court has
found any facts in this case since then. In its decision
below, the Third Circuit repeatedly emphasized the
limited state of the record, concluding that CSS had not
made a sufficient record regarding secular exemptions,
Pet. App. 35a, while noting that CSS “is of course able to
introduce additional evidence as this case proceeds,” id. at
51a. CSS did not do so before coming to this Court.
The lack of factual clarity has only increased over the
past year. The parties have engaged in multiple rounds of
contract negotiations since the FY 2018 contract expired.
The City has formulated a new standard contract, which
includes an updated and more detailed nondiscrimination
provision, for all foster-care service providers. And the
City has publicly announced the creation of a Waiver/
Exemption Committee, which will establish more regular
procedures and participate in resolving religious objections of the kind made by CSS. None of this is in the record—there are no facts about any of these important developments in the record as CSS presents it to the Court.

-22The state of the record matters here. The Third
Circuit correctly held that the City’s conduct was entirely
neutral with respect to religion. But if CSS were to attack
that finding here, the City could further contend that any
hint of alleged anti-religious taint has been cured. See
McCreary Cnty., Ky. v. Am. Civil Liberties Union of Ky.,
545 U.S. 844, 874 (2005) (rejecting the view that governments’ “past actions forever taint any effort on their part
to deal with the subject matter”). The City might also
observe that the creation of the Waiver/Exemption
Committee eliminates CSS’s entitlement to prospective
injunctive relief, to the extent that claim arises from
alleged improprieties in the City’s decision-making
process in mid-2018, before the FY 2018 contract expired
and more than a year before the Committee was created.
These are only two of many arguments that would turn on
facts this Court would have to adjudicate in the first
instance. CSS could have gone back to the district court to
develop a record on these and other ongoing issues before
seeking certiorari. It did not do so.
Nor has any court found facts bearing on the other
preliminary-injunction factors as they currently stand—
factors that the Third Circuit below identified as a distinct
bar to relief. In the emergency application that it filed on
July 31, 2018, CSS represented to this Court that it “has
already been forced to begin the wind-down process and
will likely be forced to close before its Third Circuit
Appeal is complete.” Application at 18, Fulton v. City of
Philadelphia, No. 18-A-118 (July 31, 2018). Now, more
than one year later and following completion of the Third
Circuit appeal, CSS represents that it still cares for about
60 children and retains three employees who work on
foster care. Pet. 17-18. CSS makes no representations
about the millions of dollars the City contracted to pay
CSS under its three remaining contracts (the maintenance

-23foster-care contract, the group-home contract, and the
community-umbrella contract). Nor does it make any
representations about the total effect of the intake closure,
which affects only 10% of its contracted foster-care work
with DHS. Certainly, there is no record evidence that
children in the City’s foster-care system are now suffering
in any way as a result of the intake freeze, given the City’s
broad network of providers and abiding commitment to
caring for all children in its custody. The City disputes
CSS’s incomplete and incorrect factual representations—
and were this Court to grant review, it would have to adjudicate this factual dispute, too, in the first instance.
III. The City did not act with religious hostility in
enforcing its generally applicable and
longstanding nondiscrimination policy.
The decision below is correct. As the Third Circuit explained at length, Commissioner’s Figueroa’s statements
during her conversation with Amato were not suggestive
of religious targeting. Pet. App. 33a. To the contrary, her
remarks—and her ongoing course of conduct—confirm a
desire for strong relations with CSS. Id. at 36a-37a. And
for the reasons explained below, the other evidence cited
by CSS as evidence of hostility to its religious beliefs is
irrelevant, obsolete, or reflective of a valid, secular desire
to enforce contractual policies. To be clear: The City respects and values CSS’s religious freedom, and its rights
to hold whatever beliefs it holds about same-sex marriage.
But the City is lawfully permitted to include nondiscrimination requirements in its City-funded contracts for City
services, and it did so here for legitimate secular reasons.
CSS contends that the City has adopted an impermissible scheme of exemptions from its nondiscrimination
policy. Pet. 25. That is mistaken. The relevant policy here
is the City’s requirement that agencies not categorically

-24exclude prospective foster parents based on protected
traits. CSS identifies no other instance in which an agency
was allowed to engage in such conduct. Because nobody
has ever done this before, the City could not have (and has
not) ever allowed any exemptions, and as a matter of logic
it cannot be true that the City has privileged secular over
religious motives in deciding which exemptions to grant.
CSS seeks to dodge that straightforward conclusion by
asserting that agencies can discriminate based on
protected traits in deciding where particular children
should be placed. But any “exemptions” would not be
exemptions from the relevant policy. Nor would they
undermine or implicate the purposes of the nondiscrimination policy. The City prohibits agencies from considering protected traits in deciding whether to serve prospective parents to avoid the exclusion of qualified parents on
grounds unrelated to the best interests of children, and to
signal to children in the foster-care system that the City
respects their rights. Allowing agencies to consider mental health, ethnicity, and family relationships—within the
confines of making a judgment about advancing the best
interests of a specific child in a specific placement—is consistent with the goals of that policy. Pet. App. 36a.
Put differently, allowing agencies to holistically consider protected traits to secure the best interests of a particular child while matching them to a new family is completely different than categorically excluding members of
a particular group from even attempting to certify as
foster parents. Treating these different practices differently reflects a neutral judgment, not hostility to religion.
For the same reason, CSS errs in suggesting—over
the district court’s findings of fact to the contrary, Pet.
App. 100a—that the City allows secular but not religious
exemptions to its nondiscrimination policy through

-25tolerating a practice of “referrals.” Pet. 25. There is no
evidence that any agency has ever been allowed to deny
services to prospective parents based on protected traits.
Agencies may advise prospective parents that another
agency would make more sense for them, but the final
decision is up to the parents, not the agency. Agency recommendations that seek to advance the interests of prospective parents or foster children are not exemptions to
a policy that bars agencies from refusing to serve qualified
parents.
Accordingly, the Third Circuit correctly concluded
that there is no evidence of religious hostility or targeting
and that the City has acted lawfully in proposing a contract to CSS that includes a nondiscrimination provision.
Finally, even apart from the fact that the question
presented is splitless, not outcome determinative, and
riddled with vehicle issues here, the Court should deny
review because it evokes a broader set of cultural issues
that merit further percolation. Barely a year ago, the
Court observed that “the outcome of cases” involving the
balance between LGBT rights and religious freedom
“must await further elaboration in the courts.” Masterpiece, 138 S. Ct. at 1732. That process has only just begun;
there are currently only nine published federal appellate
cases that even cite Masterpiece, and none that applies its
teachings in a remotely analogous factual context. The
wiser path is to allow these issues to mature in American
life and law before the Court returns to them in a fraught
constitutional setting.
IV. This is not a suitable vehicle for revisiting
Employment Division v. Smith.
Unable to satisfy the traditional criteria for certiorari,
CSS pivots from arguing that certiorari is warranted
because the decision below “directly conflicts” with Smith

-26to arguing that it is warranted because “Smith should be
revisited.” Pet. 29-34. But CSS barely attempts to show
the kind of special justification that might provide a basis
for overturning precedent, and it makes no effort at all to
show why this case should be the vehicle for considering
that question. It does not even assert that the question is
cleanly teed up or that the facts of this case present the
right context for exploring it.
A. For starters, this case would be a poor vehicle in
which to address Smith because CSS’s claim arises in the
context of a government contract dispute. Substantial
authority supports the City’s prerogative to impose
generally applicable conditions—including nondiscrimination conditions—on those who voluntarily undertake to
contract with the City to perform a taxpayer-funded
public function. See Agency for Int’l Dev. v. Alliance for
Open Soc’y Int’l, 570 U.S. 205, 213-14 (2013); Locke v.
Davey, 540 U.S. 712 (2004). That context separates this
case from a classic Smith case and would greatly complicate any effort to reconsider Smith on these facts. The petition makes no effort to overcome this hurdle.6
In addition, there are countervailing Establishment
Clause concerns here that would further complicate any
effort to revisit Smith on these facts. CSS seeks an unusual injunction that would require the City to vest a core
City function in a religious entity that has committed to
exercising that City responsibility—with City money—on
the basis of religious law. While the City may contract with
religious and secular agencies for the provision of services,
6

Other pending petitions likewise ask this Court to revisit or
overrule Smith but, by contrast, do not present the question in the
context of a government contract to perform a public function. See
Ricks v. Idaho Contractors Bd., No. 19-66 (docketed July 12, 2019);
Augustine Sch. v. Taylor, No. 18-1151 (docketed Mar. 6, 2019).

-27it may not empower a religious entity to impose religious
tests or enforce religious criteria on applicants for City
programs. See Larkin v. Grendel’s Den, Inc., 459 U.S. 116,
126 (1982) (“[T]he core rationale underlying the Establishment Clause is preventing ‘a fusion of governmental and
religious functions.’”). “[T]he Framers did not set up a system of government in which important, discretionary governmental powers would be delegated to or shared with
religious institutions.” Id. at 127. The pairing of a government-contracting dimension with a cross-cutting Establishment Clause limitation makes this case a particularly
unsuitable vehicle for addressing the status of Smith.
B. In any event, Smith is not outcome determinative
here. Even under the pre-Smith standard, and even
setting aside any Establishment Clause issue, the City’s
prerogative to set neutral terms for voluntary contracts
involving City funds and City programs—not to mention
core governmental functions—would have survived First
Amendment scrutiny. See, e.g., Lyng v. Nw. Indian Cemetery Protective Ass’n, 485 U.S. 439, 449 (1988); Bowen v.
Roy, 476 U.S. 693, 699-70 (1986). CSS does not cite any
pre-Smith
case
invalidating
a
governmental
contract term under the Free Exercise Clause, let alone
on grounds even remotely similar to those at issue here.
And even if strict scrutiny would have applied in a
pre-Smith world—which is not the case—the City’s
program survives such review. The City has a compelling,
legitimate interest in prohibiting discrimination in its
foster-care services program, and the inclusion of a nondiscrimination clause in its contracts is a narrowly tailored
means of achieving that objective. See, e.g., Roberts v. U.S.

-28Jaycees, 468 U.S. 609, 623 (1984); United States v. Lee, 455
U.S. 252, 261 (1982).7
C. Finally, the Court should deny review of this question because the standard for overcoming stare decisis has
not been remotely satisfied, and CSS has hardly even
attempted to do so. To be sure, several justices have
recently hinted at an interest in revisiting Smith. See Kennedy v. Bremerton Sch. Dist., 139 S. Ct. 634, 637 (2019)
(statement of Justice Alito concerning the denial of certiorari, joined by Justices Thomas, Gorsuch, and
Kavanaugh). But “[o]verruling precedent is never a small
matter.” Kimble v. Marvel Ent., LLC, 135 S. Ct. 2401,
2409 (2015). “[E]ven in constitutional cases, a departure
from precedent ‘demands special justification.’” Gamble v.
United States, 139 S. Ct. 1960, 1969 (2019) (citation omitted). That is particularly true where a party asks this
Court “to overrule not a single case, but a long line of precedents—each one reaffirming the rest” and, in this
instance, going back several decades. Kisor v. Wilkie, 139
S. Ct. 2400, 2422 (2019). Here, none of the traditional stare
decisis factors support overturning or modifying Smith.
V. The decision below correctly applied this Court’s
unconstitutional-conditions precedents.
In addition to its claim of religious hostility, CSS also
asks this Court to grant review to consider its novel
unconstitutional-conditions theory. Pet. 34-38. It contends
that the City has violated its First Amendment rights by
7

Several states have submitted an amicus brief nominally in support of CSS. Br. of Texas, et al. But their brief does not actually support CSS’s position. It argues not that the Free Exercise Clause requires a modified contract here, but rather that the Establishment
Clause does not prohibit it. Id. at 3. That is not a question CSS presents in its petition. The states’ apparent unwillingness to support
CSS’s free-exercise claim speaks volumes.

-29requiring that all who voluntarily contract with the City—
to provide City services to City residents with City
funds—comply with contractual requirements defining
the key terms of the relevant City program (namely,
which City residents must be served). CSS does not allege
a circuit split on this question, and the only court of
appeals decision to address a similar question in an analogous context is fully consistent with the decision below.
See Teen Ranch, Inc. v. Udow, 479 F.3d 403, 410 (6th Cir.
2007) (rejecting free-speech claim of religious organization that voluntarily contracted with the government to
provide taxpayer-funded residential-treatment programs
for troubled teenagers).
The Third Circuit’s decision is correct and further
review is unwarranted. As the court noted, the City does
not seek to control or influence contractors’ speech or
operations beyond the confines of their implementation of
the City’s program. Indeed, “the City is willing to work
with organizations that do not approve of gay marriage, as
its continued relationship with Bethany Christian, its
continued relationship with CSS, … and its willingness to
resume working with CSS as a foster care agency attest.”
Pet. App. 42a. The City “simply insists that CSS abide by
public rules of non-discrimination in the performance of
its public function under any foster-care contract.” Id. So
any “speech here only occurs because CSS has chosen to
partner with the government to help provide what is
essentially a public service.” Id. As a result, “the condition
pertains to the program receiving government money,”
id., and is therefore permissible under this Court’s cases,
see Agency for Int’l Dev., 570 U.S. 205; Rust v. Sullivan,
500 U.S. 173 (1991).
CSS objects that if it “declines the contract, it will be
completely excluded from Philadelphia’s foster care

-30system.” Pet. 36. As an initial matter, this assertion is not
accurate; CSS continues to play a valued role in caring for
foster children in Philadelphia through its ongoing relationship with the City. Moreover, it is always true that
failure to comply with contract terms governing a public
program can lead to exclusion from the program—and it
has never been the case that religious entities, or entities
with deeply held secular views, are constitutionally entitled to enter into government contracts and then defy any
terms to which they object. If CSS’s sweeping constitutional claims were accepted, they would cause mayhem in
government contracting.
In suggesting otherwise, CSS erroneously relies on
Trinity Lutheran Church of Columbia, Inc. v. Comer, 137
S. Ct. 2012 (2017), where Missouri awarded grants to
resurface playgrounds but refused to fund any church or
religious organization. Id. at 2017. Trinity Lutheran,
whose playground was open to children of all religions,
was thus excluded from receiving public funds “simply
because of what it is—a church.” Id. at 2023. The Court
invalidated the policy on the ground that it disqualified
otherwise eligible recipients from receiving “a public benefit solely because of their religious character.” Id. at 2021.
But here, the City does no such thing. It has not defunded
religious groups; to the contrary, it still funds CSS in
many other programs serving abused and neglected
children, and continues to fund other religious groups for
this very foster-care program. Rather, the City stopped
paying one contractor to perform a particular public
service—the evaluation and certification of prospective
foster parents—because of that contractor’s refusal to
perform a key term in its contract governing who may receive that service, without reference to whether that contractor’s refusal is based on secular or religious reasons.

-31CSS also asserts that its rights are being violated
because it is not otherwise able “to engage in the protected
activity.” Pet. 37. That is incorrect. CSS remains free to
express whatever message it wishes about same-sex
marriage and to engage in religious practice consistent
with that belief. At bottom, CSS seems to suggest that the
“protected activity” is providing taxpayer-funded fostercare services. In other words, CSS implies that it has a
constitutional right to engage in foster-care services, and
that the Commonwealth of Pennsylvania and the City
have violated that right by making foster-care services a
governmental function and attaching terms to contracts
with private entities who wish to help administer that
governmental function. But absent its contract with the
City, CSS has no preexisting right to determine the fate
of Philadelphia’s abused and neglected children, whose
care is entrusted by law to the government—even if doing
so is consistent with or steeped in its religious ministry.
The care of abused and neglected children in Pennsylvania is a public function. If CSS wishes to voluntarily contract with the City to assist in the discharge of that public
function, the City does not burden CSS’s First Amendment rights by requiring it to comply with key requirements bearing directly and exclusively on the administration of the City’s programs—including the City’s rules for
who receives these taxpayer-funded public services.
CONCLUSION
The petition for a writ of certiorari should be denied.

-32Respectfully submitted,
MARCEL S. PRATT
City Solicitor
DIANA P. CORTES
JANE LOVITCH ISTVAN
ELEANOR N. EWING
BENJAMIN H. FIELD
ELISE BRUHL
MICHAEL PFAUTZ
CITY OF PHILADELPHIA
LAW DEPARTMENT
1515 Arch St.
Philadelphia, PA 19102
(215) 683-5014

DEEPAK GUPTA
Counsel of Record
JONATHAN E. TAYLOR
LARK TURNER
ALEXANDRIA TWINEM
GUPTA WESSLER PLLC
1900 L St., NW, Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
JOSHUA MATZ
KAPLAN HECKER & FINK
350 Fifth Ave., Suite 7110
New York, NY 10118
(212) 763-0883

Counsel for Respondents City of Philadelphia, Department of Human Services for the City of Philadelphia,
and Philadelphia Commission on Human Relations
October 10, 2019

